Record Press Inc., 229 West 36th Street, New York, N.Y.10018 •
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

84872

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Haward Daniels being duly swarn, depases and says that depanent is nat party ta the actian, and is aver 18 years af age.
That an the 23rrd day af Dctaber 2020 depanent served 3 capies af the within
BRIEF FDR AMICUSCUHIAE
MAIN STREET ALLIANCE IN SUPPORT OF RESPONDENT NOAH DUGUID
upan the attarneys at the addresses belaw, and by the fallawing methad:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Jeffrey B. Wall
United States Department af Justice
850 Pennsylvania Avenue, NW
Washingtan, District af Calumbia 20530
(202) 514-2217

Paul D. Clement
Kirkland HEllis LLP
13 □ 1 Pennsylvania Avenue, NW
Washingtan. DC 20004
(202) 388-5000

Sergei Lemberg
Lemberg Law. LLC
43 Danbury Raad
Wiltan. CT 06887
(203) 653-2250

I, Haward Daniels. declare under penalty af perjury under the laws af the United States af America that the faregaing is true and carrect.

executed an Octaber 23. 2020. pursuant ta Supreme aurt Rule 28.5(c). All parties required ta be served. have been served.

6--t{

{j) ~ .

Haward Daniels
Sworn to me this

Dctaber 23. 20 20
NADIA R. OSWALD HAMID
Natary Public, State af New Yark
Na. DIDS61 □ 1366
Qualified in Kings Caunty
ires November ~D.

l

Case Name: Facebaak Inc. v. Duguid
Docket/Case No. 18-511

